Review of Calvert City Terminal

             2007-503I
         August 17, 2007




         TVA RESTRICTED INFORMATION
Summary

   Our objective was to assess the key control activities and the scale certification
   process applicable to Tennessee Valley Authority (TVA) coal shipments at
   Calvert City Terminal (CCT). We found:
      CCT has processes and key control activities in place at the terminal for the receiving,
       blending, weighing, and loading of the coal it handles for TVA. CCT also appears to
       have adhered to the scale certification requirements prescribed by the TVA contract.
      Barge shipments were generally recorded accurately in the CCT database and the TVA
       Daily Coal Report (DCR) database. However, we found:
        – One barge shipment where CCT documentation showed the barge being sent to the TVA Colbert
          Fossil Plant (COF). According to TVA Fuel Supply (FS) personnel, the barge sank in August 2006
          in route to COF. As of August 10, 2007, FS had not recovered the loss.
        – Discrepancies with some barge shipments that apparently resulted from keying errors on the part
          of TVA and CCT personnel.
      Train deliveries were generally recorded accurately in the CCT database and the TVA
       Fossil Fuel Decision Support (FFDS) database. However, we found:
        – One train delivery was actually sent to the Grand Rivers Terminal (GRT) and was mistakenly
          recorded as received at CCT in FFDS. FS is working to determine the effect on coal quality and
          survey adjustments.
        – Five train deliveries, totaling about 73,000 tons, was actually sent to CCT and were mistakenly
          recorded as received at GRT in Fuelworx and FFDS.
        – Discrepancies with some train deliveries that apparently resulted from keying errors on the part of
          TVA and CCT personnel.



                                   TVA RESTRICTED INFORMATION
                                                                                                                2
Background

   CCT was developed as a partnership between Southern Coal Handling Co., Inc.,
   a coal handling, engineering, and operations organization and Ashley Capital, an
   investment firm, to provide for the receiving, blending, and transloading of
   western and Illinois Basin coals.
                                                  TVA has contracted with CCT through
                                                   calendar year (CY) 2008 for the
                                                   transloading, stockpiling, and blending of
                                                   TVA coal.
                                                    – TVA can stockpile up to [Redacted] of coal at
                                                      CCT without incurring storage charges.

                                                  CCT has a stockpile capacity of about
                                                   [Redacted] of coal.
                                                  According to CCT personnel, as of June 26,
                                                   2007, (1) CCT had about [Redacted] of coal
                                                   stockpiled at the terminal, and (2) TVA
                                                   makes up about [Redacted] of CCT’s
                                                   business.

              Calvert City Terminal

                               TVA RESTRICTED INFORMATION
                                                                                                  3
Background (continued)

       In November 2005, we completed a review of the CCT (Inspection Report 2005-530I).
        Management requested that we schedule a follow-up inspection after CCT’s recently
        implemented scale certification process had occurred for at least one year.

       TVA is contractually obligated to have a minimum number of tons delivered to CCT each
        year. Specifically:
         – [Redacted]

         – [Redacted]

         – [Redacted]




            Fixed Hopper & Belt-line to Stockpiles        Belt-line from Dumper Building

                                 TVA RESTRICTED INFORMATION
                                                                                            4
Background (continued)
       CCT is contractually obligated to:
         –   Comply with TVA scale procedures at the coal blending terminal.
         –   Provide and maintain a mechanical sampling system at the coal blending terminal which meets ASTM D
             2234 Type I, Condition B, Collection of a Gross Sample of Coal, standards.




         Payment/Load-Out Belt Scale                             Mechanical Sampling Unit

       CCT electronic scale data is entered on a manual weight sheet which is faxed to the records office in
        Madisonville, Kentucky. The manual weight sheet data is then entered into the CCT database.

       TVA received [Redacted] of coal from CCT from the contract effective date of
        January 1, 2003, through December 31, 2006.

       TVA conducts flyovers of the CCT stockpiles to adjust inventory. This is normally done on a quarterly
        basis.
                                      TVA RESTRICTED INFORMATION
                                                                                                                  5
Objective and Scope

                                      Objective

                                       Assess key control activities and the scale
                                       certification process applicable to TVA coal
                                       shipments at CCT.


       Dumper Building




                                      Scope

                                       Coal shipments delivered to and shipped from
                                       CCT from January 1, 2006, through December 31,
                                       2006.


        Mobile Stacker
                         TVA RESTRICTED INFORMATION
                                                                                      6
Methodology

   In order to accomplish our objective, we:
      Reviewed the CCT contract to identify and document key provisions of the contract,
       including billing terms and rates, tonnage requirements, key processes and procedures,
       and key prescribed control activities.
      Performed a walkdown at CCT to document processes, procedures, and key control
       activities.
        – We took digital videos and pictures of the coal receipt, storage, blending, sampling, and loading
          processes.




                  Mobile Hopper                                  Radial Stacker
      Reviewed reports and other documentation pertaining to (1) coal shipments to TVA and
       (2) the certification, calibration, and maintenance checks of CCT belt scales.

                                   TVA RESTRICTED INFORMATION
                                                                                                              7
Methodology (continued)

       Randomly selected 30 barge shipments from CCT to various TVA fossil plants to
        compare the weights in the CCT database to the actual weight documentation at CCT.
       Performed an analytical review on CCT barge shipments to TVA. Specifically, we:
         – Compared CY 2006 barge shipments, as recorded in the TVA DCRs, to the CCT database to
           identify delivery and shipment discrepancies (i.e., reconciliation of TVA DCRs to the CCT
           database).
         – Compared CCT weights with TVA weights to identify significant variances.
       Randomly selected 30 train deliveries to CCT from TVA vendor mines, to verify CCT
        (1) scale weights and (2) mine weights were correctly entered into the CCT database.
       Performed an analytical review on coal deliveries to CCT from TVA vendor mines.
        Specifically, we:
         – Compared CY 2006 train deliveries, as recorded in FFDS, to the CCT database to identify
           discrepancies (i.e., reconciliation of FFDS to the CCT database).
         – Compared vendor mine weights with CCT weights to identify significant variances.
       Reviewed CCT scale certification documentation to determine if scales are being
        certified in accordance with the contract terms.

    This inspection was conducted in accordance with the “Quality Standards for Inspections.”




                                   TVA RESTRICTED INFORMATION
                                                                                                       8
Finding 1 – Processes and Key Control
Activities
    CCT has established processes and key control activities for the receiving,
    blending, weighing, and loading of the coal it handles for TVA. Specifically, CCT:
       Maintains documentation supporting the certification of belt scales.
          – Certification of belt scales is required by contract.
       Weighs all train deliveries of TVA coal received at the terminal using a certified belt
        scale.
          – A monthly report of TVA coal deliveries at CCT is sent to the TVA Fossil Power Group.
       Weighs all shipments of coal destined for TVA fossil plants using a certified belt scale.
       Uses materially tested belt scales for the weighing of coal during the blending process.
       Conducts visual inspections and zero calibrations on a daily basis and conducts span
        checks on a weekly basis for all belt scales on site.
       Utilizes a computerized system for blending TVA coal.
       Maintains a computerized database of coal delivered for and shipped to TVA.




                                      TVA RESTRICTED INFORMATION
                                                                                                    9
Finding 1 – Processes and Key Control
Activities (continued)

    TVA contracts with SGS Minerals Services (SGS) for the sampling of coal at
    CCT. Our discussions with the SGS representative on-site and observations found:
       CCT has two mechanical swing-arm samplers utilized for the sampling of coal. These
        samplers are for inbound deliveries and outbound shipments.
            – Inbound deliveries and outbound shipments can be sampled at the same time.
                     Every other inbound delivery is sampled unless directed otherwise by TVA.
                     All outbound shipments are sampled unless directed otherwise by TVA.
            – If samplers are not functioning for an extended1 period of time, a manual sample is taken by SGS
              personnel.
            – Bags containing samples are secured immediately after sample has been collected.
            – Samples are packaged to be delivered to a TVA designated testing facility.
                     Samples are secured in a lockbox until picked up.
                     CCT personnel do not have access to the sample.
            – SGS maintains a record of the samples taken for TVA.
            – SGS personnel operate the samplers and CCT personnel are responsible for maintaining the
              sampling equipment.

        1   If samplers are down for a short time period the loading/unloading process is stopped until the samplers are repaired.


                                             TVA RESTRICTED INFORMATION
                                                                                                                                     10
Finding 2 – Barge Shipments To TVA

    We found that barge shipments were generally recorded accurately in the
    (1) CCT database and (2) DCR. Specifically:
       For the 30 randomly selected barge shipments, we found no discrepancies when the CCT
        database weight was compared to the actual CCT weight documentation.
       For the CCT database compared to the DCRs, we found:
         – The CCT database contained 3,483 barge shipments, of which 130 did not have a corresponding2
           entry in the DCR. We were able to reconcile all but one of the 130 differences. Specifically, we
           reviewed CCT and TVA supporting documentation and found:
                 CCT documentation showed a barge being sent to COF which the DCR did not show as being delivered.
                  According to TVA FS personnel, the barge sank in August 2006 between Pickwick Lock and COF. The loss was
                  valued at [Redacted] including terminal handling. As of August 10, 2007, TVA had not recovered the loss.
                 For 40 of the 130 shipments, a Barge ID was entered in the CCT database but no data was included in the date
                  loaded, weight, plant destination, or Traffic Control Number (TCN) fields. No billing to TVA was made for these
                  entries, and no reduction of inventory occurred. Therefore, no actions are warranted.
                 For 89 of the 130 shipments, the differences appeared to be the result of timing differences related to our review
                  period.
                    –   Records in the DCR are entered on the unload/receive date, while CCT records are entered on
                        load/shipment date (i.e., some barges were in transit).



         ² Matches were based on Conveyance ID (Barge ID), TCN , and quantity shipped.



                                          TVA RESTRICTED INFORMATION
                                                                                                                                  11
Finding 2 – Barge Shipments To TVA
(continued)
      – The DCRs contained 3,379 barge shipments, of which 123 did not have a
        corresponding entry in the CCT database. For the discrepancies, we reviewed CCT
        and TVA supporting documentation and found:
             For 20 of the 123 shipments, we were able to identify probable matches between DCR and
              CCT data. The discrepancies appear to have resulted from keying errors on the part of TVA
              and CCT.
             For 1 barge shipment the total from stockpile was entered as 1,742 tons when the correct
              amount should have been 1,443 tons, a 299 ton difference. According to CCT personnel, the
              discrepancy probably resulted from a keying error because the next barge entry had a weight
              of 1,742 tons (i.e., the 1,742-ton shipment was entered twice).
               – According to CCT personnel, this error was not corrected because a flyover inventory
                 adjustment had already been made prior to the error being discovered.
             The remaining 103 shipments appear to be the result of timing differences.




                                 TVA RESTRICTED INFORMATION
                                                                                                        12
Finding 3 – Train Deliveries To CCT

    We found that train deliveries were generally recorded accurately in (1) the CCT
    database and (2) FFDS. Specifically:
       For the 30 randomly selected train deliveries, we found no discrepancies when (1) vendor
        mine weights in the CCT database were compared to vendor manifest weights, and
        (2) the CCT database weight was compared to the actual CCT weight documentation.
       For the FFDS train deliveries compared to the CCT database, we found:
         – FFDS contained 431 train deliveries, of which 16 did not have a corresponding 3 entry in the CCT
           database. We reviewed CCT and TVA supporting documentation and were able to reconcile all of
           the differences. Specifically:
                    For 1 of the 16 deliveries, the shipment of approximately 12,000 tons to GRT was mistakenly recorded
                     by TVA as received at CCT. FS corrected the entry based on our identification which may have
                     incorrectly adjusted inventory. FS is working to determine the effect on coal quality and survey
                     adjustments.
                    For 10 of the 16 train deliveries, the discrepancies appear to have resulted from timing differences.
                       – Records in FFDS are entered based on the date shipped from the mine, while records in the CCT database
                         are entered based on the date the train arrives at the terminal.
                    For 2 of the 16 train deliveries, no shipment quantity was entered in the CCT database. No billing to
                     TVA was made for these entries, and no reduction of inventory occurred.
                    For 3 of the 16 train deliveries, the discrepancies appear to have resulted from keying errors on the part
                     of TVA and CCT.
         3
             Matches were based on date and quantity.


                                           TVA RESTRICTED INFORMATION
                                                                                                                             13
Finding 3 – Train Deliveries TO CCT
(continued)

      – The CCT database contained 434 train deliveries, of which 19 did not have a
        corresponding entry in FFDS. For the discrepancies, we reviewed CCT and TVA
        supporting documentation and found:
                 For 5 of the 19 deliveries, totaling approximately 73,000 tons, the train deliveries were
                  mistakenly recorded as received at GRT instead of CCT in FuelWorx. 4
                    – FS corrected the entries based on our identification, which may have incorrectly
                      adjusted inventory. FS is working to determine the effect on coal quality and survey
                      adjustments.
                 For 7 of the 19 train deliveries, the differences appear to have been the result of timing
                  differences.
                 For 4 of the 19 train deliveries, the differences appear to be related to straggler or individual
                  rail cars that were received after the original train had been unloaded.
                 For 3 of the 19 deliveries, the differences were related to keying errors.

      4
          Information from FuelWorx is transferred into FFDS.




                                         TVA RESTRICTED INFORMATION
                                                                                                                  14
Recommendations

   We recommend the General Manager, FS:
      Initiate recovery of the loss created by the sunken barge.
      Ensure the completion of necessary corrective actions regarding inventory and coal-
       quality adjustments for the incorrectly recorded train deliveries.
      Consider providing guidance for correcting identified data entry errors when coal flyover
       adjustments have occurred.
      Improve efforts to ensure that information is entered correctly into FuelWorx.




                                TVA RESTRICTED INFORMATION
                                                                                               15
